BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Brief for the Respondents in Opposition in
20-994, Volkswagen Group ofAmerica, Inc., et al. v. The
Environmental Protection Commission of Hillsborough
County, Florida and Salt Lake County, Utah, was sent
via Next Day Service to the U.S. Supreme Court, and
e-mail service to the following parties listed below, this
18th day of March 2021:
Robert J. Giuffra Jr.
Sullivan & Cromwell
125 Broad Street
New York, NY 10004
giuffrar@sullcrom.com
212-558-3121
Matthew D. Slater
Cleary Gottlieb Steen & Hamilton LLP
2112 Pennsylvania Avenue, NW
Suite 1000
Washington, DC 20037
mslater@cgsh.com
(202) 974-1500
Counsel for Petitioners

I

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
/ www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Peter K. Stris
Counsel of Record
Rachana A. Pathak
Douglas D. Geyser
John Stokes
Stris & Maher LLP
777 S. Figueroa Street
Suite 3850
Los Angeles, CA 90017
(213) 995-6800
pstris@stris.com
Bridget C. Asay
Stris & Maher LLP
28 Elm Street, 2d Floor
Montpelier, VT 05602
Counsel for Respondents

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on March 18, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

I

